( '"\

- m n

r_

!
V, j u

i-k »■ ^

< ‘

\lll

. lt. A
■*. (J

L..: Z 6 .
off;

.EOF"nrclp-,<

In The
SUPREME COURT OF THE UNITED STATES

TAN PHAN
Petitioner;
v.
MINH TRUONG, et al
Respondents (Debtors).

On Petition for Writ of Certiorari
to the United States Court of Appeals
for the Fifth Circuit

PETITION FOR WRIT OF CERTIORARI

Tan Phan (pro se)
3770 Lovers Wood Ln #1003
Houston , TX 77014
tp 110942@yahoo.com
(832) 554-6642

RECEIVED
JUN -9 2020

QUESTION PRESENTED
Does Chapter 7 bankruptcy require the nonexempt debt to
be secured as a lien in order to liquidate debtors’ homestead?
And if state statute conflicts with state constitution, then
which law must be applied to the case at hand?

1

PETITION FOR WRIT OF CERTIORARI
Petitioner respectfully prays that a writ of certiorari issue
to review the unpublished opinion of the U.S. Court of
Appeals for the Fifth Circuit (Case No. 19-20419).
OPINIONS BELOW
All below courts refused to liquidate debtors’ homestead
just because I’m an unsecured creditor (see opinion).
JURISDICTION
The opinion of the court of appeals was entered on October
21, 2019. My petition for writ of certiorari was originally
postmarked December 26, 2019, so this Court has
jurisdiction under 28 U.S.C. § 1254(1).

RELEVANT STATUTORY PROVISIONS
Tex.Prop.Code § 41.001 provides:
“Sec. 41.001. INTERESTS IN LAND EXEMPT FROM
SEIZURE, (a) A homestead and one or more lots used for
a place of burial of the dead are exempt from seizure for
the claims of creditors except for encumbrances properly
fixed on homestead property.
(b) Encumbrances may be properly fixed on homestead
property for:
(1) purchase money;
(2) taxes on the property;
(3) work and material used in constructing improvements
on the property if contracted for in writing as provided by
Sections 53.254(a), (b), and (c);
(4) an owelty of partition imposed against the entirety of
the property by a court order or by a written agreement of
the parties to the partition, including a debt of one spouse

2

in favor of the other spouse resulting from a division or an
award of a family homestead in a divorce proceeding;
(5) the refinance of a lien against a homestead, including
a federal tax hen resulting from the tax debt of both
spouses, if the homestead is a family homestead, or from
the tax debt of the owner;”
Tex. Const. Art. XVI, § 50 (a) provides:
“Sec. 50. PROTECTION OF HOMESTEAD FROM
FORCED OR UNAUTHORIZED SALE; EXCEPTIONS;
REQUIREMENTS FOR MORTGAGE LOANS AND
OTHER OBLIGATIONS SECURED BY HOMESTEAD.
(a) The homestead of a family, or of a single adult person,
shall be, and is hereby protected from forced sale, for the
payment of all debts except for:
(1) the purchase money thereof, or a part of such
purchase money;
(2) the taxes due thereon;
(3) an owelty of partition imposed against the entirety of
the property by a court order or by a written agreement of
the parties to the partition, including a debt of one spouse
in favor of the other spouse resulting from a division or an
award of a family homestead in a divorce proceeding;
(4) the refinance of a lien against a homestead, including
a federal tax lien resulting from the tax debt of both
spouses, if the homestead is a family homestead, or from
the tax debt of the owner;”

U.S. Courts website provides:
http://www.uscourts.gov/services-forms/bankruptcv/bankruptcvbasics/chapter-7-bankruptcv-basics

“Role of the Case Trustee

3

When a chapter 7 petition is filed, the U.S. trustee (or the
bankruptcy court in Alabama and North Carolina)
appoints an impartial case trustee to administer the case
and liquidate the debtor's nonexempt assets. 11 U.S.C. §§
701, 704. If all the debtor's assets are exempt or subject to
valid liens, the trustee will normally file a "no asset"
report with the court, and there will be no distribution to
unsecured creditors. Most chapter 7 cases involving
individual debtors are no asset cases. But if the case
appears to be an "asset" case at the outset, unsecured
creditors (7) must file their claims with the court within
90 days after the first date set for the meeting of creditors.
Fed. R. Bankr. P. 3002(c). A governmental unit, however,
has 180 days from the date the case is filed to file a claim.
11 U.S.C. § 502(b)(9). In the typical no asset chapter 7
case, there is no need for creditors to file proofs of claim
because there will be no distribution. If the trustee later
recovers assets for distribution to unsecured creditors, the
Bankruptcy Court will provide notice to creditors and will
allow additional time to file proofs of claim. Although a
secured creditor does not need to file a proof of claim in a
chapter 7 case to preserve its security interest or lien,
there may be other reasons to file a claim. A creditor in a
chapter 7 case who has a lien on the debtor's property
should consult an attorney for advice.
Commencement of a bankruptcy case creates an "estate."
The estate technically becomes the temporary legal owner
of all the debtor's property. It consists of all legal or
equitable interests of the debtor in property as of the
commencement of the case, including property owned or
held by another person if the debtor has an interest in the
property. Generally speaking, the debtor's creditors are
paid from nonexempt property of the estate.

4

The primary role of a chapter 7 trustee in an asset case is
to liquidate the debtor's nonexempt assets in a manner
that maximizes the return to the debtor’s unsecured
creditors. The trustee accomplishes this by selling the
debtor's property if it is free and clear of liens (as long as
the property is not exempt) or if it is worth more than any
security interest or lien attached to the property and any
exemption that the debtor holds in the property.”
STATEMENT OF THE CASE
The court of first instance (bankruptcy) has jurisdiction
under 28 U.S. Code § 1331. Debtors filed a Chapter 7
bankruptcy petition & exempted their homestead from
being liquidated. I objected to that claim because a
homestead is exempt from all debts, but there are at least
7 exceptions clearly defined in the Texas law that they
claimed and “the refinance of a lien against debtor’s
homestead” is one of those.
The Fifth Circuit Court of Appeals’ opinion (attached as
the only appendix hereinafter referred to as “opinion”) has
most finding of facts and the key fact is on its page #5:
“Phan used his funds to pay off the mortgage on the
Debtors’ property (which would have been an
“encumbrance properly fixed on homestead property”
under § 41.001)”
That means the type of debt is on the list of § 41.001,
in other words the debt is a nonexempt debt. However,
all below courts refused to liquidate debtors’ homestead
under Chapter 7 Bankruptcy Rule just because I “did not
obtain an encumbrance on the property in the form of
another mortgage or lien”.

5

REASONS FOR GRANTING THE PETITION
1) To correct the Court of Appeals’ misapplication of law
to facts significantly different from those in Tex. Prop.
Code § 41.001; especially this is not a seizure or forced
sale. Neither I nor the bankruptcy trustee needs to
seize anything from debtors because:
“Commencement of a bankruptcy case creates
an "estate." The estate technically becomes the
temporary legal owner of all the debtor's property.”
(see page 4)
And trustee can sell the nonexempt property even if it is
free and clear of liens (see page 5):
“The primary role of a chapter 7 trustee in an asset
case is to liquidate the debtor's nonexempt assets in
a manner that maximizes the return to the debtor's
unsecured creditors. The trustee accomplishes this
by selling the debtor's property if it is free and clear
of liens (as long as the property is not exempt)”
2) To maintain uniformity of the laws:
Tex. Prop. Code § 41.001 uses the phrase “encumbrance
properly fixed on homestead property” while the
Tex. Const. Art. XVI, § 50 (a) refers to it as ‘debt’ only
(see page 3).
The judgment against debtors in the amount of $148,142
as mentioned on page #2 of the opinion is clearly a debt
and state statute is obviously subordinate to state
constitution similarly to Supremacy Clause, so we don’t
need to convert it to an encumbrance or obtain a lien for
the debt to be categorized as a nonexempt debt. A lien is
required only if creditors want to foreclose the homestead,
but it’s not the case here.

6

CONCLUSION
For the foregoing reasons and my case is very unique, this
Court should grant my PETITION FOR WRIT OF CERTIORARI
then rule on my case to set it as a precedent for future
references.
Respectfully submitted,

Tan Phan (pro se)
3770 Lovers Wood Ln #1003
Houston , TX 77014
tp 110942@yahoo.com
(832) 554-6642
Date: June 1st, 2020

7

